No. 19-1189

 

IN THE

Supreme Court of the United States

BP P.L.C. ETAL.,
Petitioners,
v.

MAYOR AND CITY COUNCIL OF BALTIMORE,
Respondent.

On Writ of Certiorari to the United
States Court of Appeals for the Fourth Circuit

BRIEF OF INDIANA, ALABAMA, ALASKA,
GEORGIA, KANSAS, MISSISSIPPI,
MISSOURI, NEBRASKA, NORTH DAKOTA,
SOUTH CAROLINA, SOUTH DAKOTA,
TEXAS, AND UTAH AS AMICI CURIAE
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

Pursuant to Supreme Court Rule 33.1(h), I, Thomas M. Fisher, certify that the
document contains 7,366 words (including footnotes), excluding the parts of the
document exempted by Rule 33.1(d), according to the word-count function of Microsoft
Word, the word-processing program used to prepare this brief.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 23, 2020 /s/Thomas M. Fisher
Thomas M. Fisher
Solicitor General
Office of the Attorney General
IGC South, Fifth Floor
302 W. Washington Street
Indianapolis, IN 46204
(317) 232-6255
Tom.Fisher@atg.in.gov
